APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(July 10, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Order
on
Landowners’ Unjust
Enrichment Claim in the United
States District Court, Northern
District of Ohio, Eastern Division
(February 26, 2018) . . . . . . . . . . App. 20
Appendix C Final Judgment Entry in the United
States District Court, Northern
District of Ohio, Eastern Division
(February 26, 2018) . . . . . . . . . . App. 23
Appendix D Amended Memorandum of Opinion
and Order in the United States
District Court, Northern District of
Ohio, Eastern Division
(February 14, 2018) . . . . . . . . . . App. 25

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0147p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-3233
[Filed July 10, 2019]
___________________________________
RICHARD BAATZ, et al.,
)
Plaintiffs-Appellants,
)
)
v.
)
)
COLUMBIA GAS TRANSMISSION, LLC, )
Defendant-Appellee.
)
___________________________________ )
Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
No. 1:14-cv-00505—Thomas M. Parker,
Magistrate Judge.
Argued: November 27, 2018
Decided and Filed: July 10, 2019
Before: THAPAR, BUSH, and NALBANDIAN,
Circuit Judges.
_________________

App. 2
COUNSEL
ARGUED: Rick L. Ferrara, THE LINDNER LAW
FIRM, LLP, Cleveland, Ohio, for Appellants. Paul K.
Stockman, KAZMAREK MOWREY CLOUD LASETER
LLP, Pittsburgh, Pennsylvania, for Appellee. ON
BRIEF: Rick L. Ferrara, Daniel F. Lindner, THE
LINDNER LAW FIRM, LLP, Cleveland, Ohio, for
Appellants. Paul K. Stockman, KAZMAREK MOWREY
CLOUD LASETER LLP, Pittsburgh, Pennsylvania,
Alexander M. Madrid, MCGUIRE WOODS LLP,
Pittsburgh, Pennsylvania, Jodie Hermann Lawson,
MCGUIRE WOODS LLP, Charlotte, North Carolina,
for Appellee.
_________________
OPINION
_________________
JOHN K. BUSH, Circuit Judge. Richard Baatz and
fifty other landowners in Medina, Ohio (“Landowners”)
appeal the district court’s grant of summary judgment
to Columbia Gas Transmission, LLC (“Columbia Gas”)
on Landowners’ state-law trespass and unjust
enrichment claims involving underground storage of
natural gas. Among other things, this case concerns an
unusual situation in which, as to one of the claims on
which appellee Columbia Gas was found liable (unjust
enrichment), it is content to pay the damages awarded
even though its position is that no liability should have
been imposed at all. A question arises, therefore, as to
whether Columbia Gas needed to file a cross-appeal in
order to defend the damages award based on an
argument that it had no liability on the underlying
claim. For the reasons explained below, we hold that no

App. 3
such cross-appeal on liability was necessary, and we
AFFIRM the judgment of the district court in all
respects.
I.
This dispute concerns a natural gas storage area
known as the Medina Storage Field, located within the
Clinton sandstone formation and approximately
3,000 feet underground in Medina, Ohio.1 Columbia
Gas injects natural gas into the Medina Storage Field
(and other storage fields) during the summer months
when gas demand is low and withdraws the stored gas
during the winter months when demand is high.
Landowners own property either directly above or near
the boundary of the Medina Storage Field. Although
Columbia Gas or its predecessor in interest has been
storing gas in the Medina Storage Field since 1959, the
earliest that any Landowner purchased any property at
issue was September of 1990. Landowners argue that
Columbia Gas intentionally invaded the subsurface of
their properties to store natural gas without their
permission and unjustly enriched itself by using their
land without paying fair market rental value for the
easement they claim is needed to use the subsurface.
Columbia Gas is subject to the Natural Gas Act
(“NGA”) and is regulated by the Federal Energy
Regulatory Commission (“FERC”). Under the NGA,
FERC may issue certificates of public convenience and
1

In reviewing the grant of Columbia Gas’s summary judgment
motion, we consider the facts in the light most favorable to
Landowners, the parties who lost the motion. See B.F. Goodrich
Co. v. U.S. Filter Corp., 245 F.3d 587, 593 (6th Cir. 2001).

App. 4
necessity to authorize the construction and
maintenance of facilities related to the natural gas
industry. 15 U.S.C. § 717f(c). The NGA also authorizes
the FERC certificate holder (e.g., Columbia Gas) to
obtain the necessary property by eminent domain if the
certificate holder “cannot acquire by contract, or is
unable to agree with the owner of property to the
compensation to be paid.” Id. § 717f(h). The NGA does
not require the certificate holder to acquire the
property it uses for its natural gas storage; the statute
merely authorizes acquisition. See id.
Columbia Gas or its predecessor in interest has
been a certificate holder of the Medina Storage Field
since 1958, but Columbia Gas did not attempt to obtain
any easement rights for the Medina Storage Field until
September 2013. At that time, Columbia Gas wrote
letters to Landowners offering to purchase a subsurface
easement under each of their properties. Landowners
rejected Columbia Gas’s offer and filed suit soon
thereafter, asserting claims for (1) Trespass, (2) Unjust
Enrichment-Use of Property for Storage,
(3) Mandamus-Inverse Condemnation, (4) Declaratory
Judgment, and (5) Permanent Injunction. These claims
were similar to those in a different class action, Wilson
v. Columbia Gas Transmission, LLC, No. 2:12-cv-01203
(S.D. Ohio 2012). Wilson involved Columbia Gas but
did not include the Landowners. Soon after
Landowners filed suit, Columbia Gas filed an amended
counterclaim in Wilson, adding Landowners as
defendants in that case. As part of this filing in Wilson,
Columbia Gas sought condemnation to establish
easements in the subsurface of Landowners’ properties.
Columbia Gas then moved to dismiss the present case,

App. 5
arguing that Wilson had “first to file” priority. The
district court granted the motion, but this court
reversed. See Baatz v. Columbia Gas Transmission,
LLC, 814 F.3d 785, 787–88 (6th Cir. 2016).
On remand, Columbia Gas and Landowners jointly
requested to sever their claims in Wilson and to
transfer that case to the United States District Court
for the Northern District of Ohio. This request was
granted, and Wilson was transferred and re-captioned
as Columbia Gas Transmission, LLC v. Booth, 1:16-cv01418 (N.D. Ohio 2016).
In Booth the district court decided that Columbia
Gas had a right to obtain Landowners’ property by
eminent domain and could take possession of the land
after it paid just compensation. After that decision, the
Booth court empaneled a three-commissioner panel to
determine the appropriate award for just
compensation. No party objected to the commissioners’
final report.
After the transfer to the Northern District of Ohio,
Columbia Gas moved to dismiss the complaint in the
present case. Because Landowners conceded that the
condemnation action in Booth “moots their claims for
mandamus/inverse condemnation, declaratory
judgment, and injunctive relief,” the district court
dismissed all of Landowners’ claims except their
trespass and unjust enrichment claims. R. 58, PageID
1032. After discovery, the parties cross-moved for
summary judgment.
The district court granted Columbia Gas’s motion
for summary judgment on Landowners’ trespass

App. 6
claims, holding that Chance v. BP Chemicals, Inc., 670
N.E.2d 985 (Ohio 1996) “requires the conclusion that
Columbia [Gas’s] injection of its natural gas into [the
Clinton sandstone] formation was not trespass because
the Landowners had no right to exclude Columbia from
using that stratum.” R. 118-1, PageID 3668. The
district court deferred ruling on the unjust enrichment
claims until the parties calculated pre-judgment
interest from the Booth condemnation award to satisfy
Landowners’ damages relating to their unjust
enrichment claims. After the parties calculated the prejudgment interest award, the district court granted
summary judgment in Landowners’ favor on unjust
enrichment. The district court held that each
Landowner was entitled to damages starting from the
date that landowner purchased his or her property
because Columbia Gas had failed to compensate
Landowners for using their subsurface to store natural
gas. The district court reasoned that “payment of just
compensation in Booth will fully compensate the
Landowners for any unjust enrichment they may have
conferred upon Columbia [Gas]” and thus Columbia
Gas “should be required to pay [interest] on the just
compensation amount for the period [from] March 5,
2008 through the date just compensation is paid,” (the
relevant statute of limitations period). Id. at 3683.
Landowners timely appealed, challenging the
district court’s grant of summary judgment with
respect to both their trespass claims and unjust
enrichment claims. Columbia Gas did not file a cross
appeal.

App. 7
II.
We review a district court’s decision to grant
summary judgment de novo. Simpson v. Ernst &
Young, 100 F.3d 436, 440 (6th Cir. 1996). A party is
entitled to summary judgment when “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). A dispute is “genuine” if “the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). “The moving party bears the
initial burden of demonstrating the absence of any
genuine issue of material fact.” Mosholder v.
Barnhardt, 679 F.3d 443, 448 (6th Cir. 2012) (citing
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986)).
“Once the moving party satisfies its burden, the burden
shifts to the nonmoving party to set forth specific facts
showing a triable issue of material fact.” Id. at 448–89
(citing Fed. R. Civ. P. 56(e); Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1985)).
A. Trespass Claims
Under Ohio law, which the parties do not dispute
applies here, “[t]respass is an unlawful entry upon the
property of another.” Chance, 670 N.E.2d at 991
(citation omitted). To prove a trespass claim, plaintiffs
must demonstrate that (1) they had a possessory
interest in the property, and (2) the offending party
entered the property without consent or prior
authorization or authority. See Keesecker v. G.M.
McKelvey Co., 47 N.E.2d 211, 214 (Ohio 1943). The
district court granted summary judgment to Columbia
Gas on the ground that Landowners could not prove

App. 8
that they had the requisite possessory interest based
on Chance.
One of the issues in Chance was whether BP
Chemicals had trespassed by injecting hazardous waste
into the subsurface at a remote location which later
migrated to the subsurface beneath the plaintiffs’ land.
As part of its reasoning, the Ohio Supreme Court
addressed the property owners’ argument that BP
Chemicals was liable for trespass because “the owner
of land has absolute ownership of all the subsurface
property.” Chance, 670 N.E.2d at 991 (alternation
omitted). The implication of that proposition, the Ohio
Supreme Court noted, was that “as one of the incidents
of absolute ownership, appellants have the right to
exclude others.”Id.
Before Chance, the Ohio Supreme Court had
characterized a property owner’s subsurface ownership
as absolute: “The word land includes not only the face
of the earth, but everything under it or over it. He who
owns a piece of land, therefore, is the owner of
everything underneath in a direct line to the center of
the earth and everything above to the heavens.” Winton
v. Cornish, 5 Ohio 477, 478 (1832). The Chance court,
however, rejected this traditional rule, concluding that
it “has no place in the modern world.” 670 N.E.2d at
991 (quoting Vill. of Willoughby Hills v. Corrigan, 278
N.E.2d 658, 664 (Ohio 1972)). “Just as a property
owner must accept some limitations on the ownership
rights extending above the surface of the property,” the
Ohio Supreme Court found “that there are also
limitations on property owners’ subsurface rights.” Id.
at 992. Chance thus “extend[ed] the reasoning of

App. 9
[Village of Willoughby Hills v. Corrigan], that absolute
ownership of air rights is a doctrine which ‘has no place
in the modern world,’ to apply as well to ownership of
subsurface rights.” Id. Based on the “unique facts” of
the case, the Ohio Supreme Court concluded “that
[property owners’] subsurface rights in their properties
include the right to exclude invasions of the subsurface
property” only if the property owners prove that the
invasion “actually interfere[d] with [their] reasonable
and foreseeable use of the subsurface.” Id.
Applying the new rule, Chance held that the
property owners “did not, as a matter of law, establish
an unlawful entry on their properties by [BP
Chemicals].” Id. at 993. Stated differently, BP
Chemicals did not interfere with the property owners’
possessory interest in the subsurface. To interfere with
that possessory interest, the defendant must interfere
“with the reasonable and foreseeable use of the[ir]
properties.” Id.
Landowners insist that the Chance reasoning
concerned an indirect trespass and does not apply to
direct trespass claims, which they contend they are
asserting.2 We are not persuaded. In holding that BP

2

A direct trespass includes those actions traditionally within the
scope of common law trespass—for example, when a defendant
takes an action that immediately results in an invasion of the
plaintiff’s property. See Williams v. Oeder, 659 N.E.2d 379, 382–83
(Ohio Ct. App. 1995); Brown v. Cty. Comm’rs of Scioto Cty., 622
N.E.2d 1153, 1161–62 (Ohio Ct. App. 1993). An indirect trespass,
by contrast, occurs when a defendant discharges a foreign object
that, after being released on property not owned by the plaintiff,

App. 10
Chemicals did not trespass in Chance, the Ohio
Supreme Court necessarily decided the scope of the
plaintiffs’ possessory interest in their subsurface for
both direct and indirect trespass. There is nothing in
the Ohio Supreme Court’s rejection of the proposition
that a property owner has absolute rights in the
subsurface indicating a different definition of
possessory interest for direct versus indirect trespass.
See Chance, 670 N.E.2d at 992. Instead, possessory
interest is based on the reasonable and foreseeable use
of the property owner’s subsurface, regardless of how
the trespass occurred. Landowners have offered no
persuasive reason why the Ohio Supreme Court would
vary this understanding of possessory interest
depending on whether the alleged trespass is direct or
indirect.
Landowners also attempt to distinguish Chance
because “the Ohio Supreme Court explicitly limited its
ruling by stating that oil and gas extraction was
‘fundamentally dissimilar to the unique situation’ that
it faced, declining to apply such law.” Appellants Br. at
18 (quoting Chance, 670 N.E.2d at 991). Landowners,
however, take the quoted language from Chance out of
context. The Ohio Supreme Court’s remark related to
whether the negative rule of capture from oil and gas
cases would apply to the facts in Chance. See 670
N.E.2d at 990–91. The Ohio Supreme Court’s
statement did not mean that the Chance definition of
possessory interest would not apply to oil and gas
cases. Indeed, the Ohio Court of Appeals later applied
migrates to the plaintiff’s property. See Williams, 659 N.E.2d at
382–83; Brown, 622 N.E.2d at 1161–62.

App. 11
the Chance rule to a trespass claim involving gas
migration. See Lueke v. Union Oil Co. of Cal., No. OT00-008, 2000 WL 1545077, at *6–7 (Ohio Ct. App.
Oct. 20, 2000). This court also has held that Chance
applies in contexts other than the specific setting
presented in that case. See Baker v. Chevron U.S.A.,
Inc. 533 F. App’x 509, 523 (6th Cir. 2013).
Landowners further argue that instead of applying
Chance, we should follow Bowman v. Columbia Gas
Transmission Corp., 850 F.2d 692, 1988 WL 68890
(6th Cir. 1988) (unpublished table opinion) (per curiam)
and Beck v. Northern Natural Gas Co., 170 F.3d 1018
(10th Cir. 1999) to rule in their favor. In Bowman,
however, this court did not consider whether the
alleged trespasser’s conduct constituted a trespass
because the issue was not preserved for appeal.
Bowman, 1988 WL 68890, at *2. And Beck involved
Kansas law, so it has minimal, if any, value in
predicting Ohio law. 170 F.3d at 1021–22.
Thus, under Ohio law, to survive summary
judgment on the trespass claim (whether direct or
indirect), Landowners must show that Columbia Gas
interfered with the possessory interest in their
subsurface (i.e., interference with a reasonable or
foreseeable use of the subsurface). Chance, 670 N.E.2d
at 991–92. Landowners cannot do that here: indeed,
each Landowner in this case has admitted that they
have not used and do not intend to use their
subsurface. We therefore AFFIRM the district court’s
grant of summary judgment to Columbia Gas with
respect to Landowners’ trespass claims.

App. 12
B. Unjust Enrichment Claims
The court believed that “Columbia [Gas] has been
unjustly enriched by storing natural gas beneath
[Landowners’ properties ‘since 1959’ without having to
pay storage fees or even paying just compensation for
the taking.” R. 118-1, PageID 3679. But it disagreed
that Columbia Gas had been unjustly enriched at
Landowners’ expense for that entire time. This was
because “the earliest any of the Landowners’ acquired
their property was 1990.” Id. at PageID 3678. To the
extent that Landowners “may have conferred upon
Columbia,” id. at PageID 3683, an unjust enrichment
after acquiring their properties, the court held that
Landowners would be compensated for that after
receiving just compensation in Booth.
Having held Columbia Gas liable for unjust
enrichment, the district court ordered that Columbia
Gas pay Landowners additional damages in the form of
pre-judgment interest on the Booth award. The district
court limited the Landowners’ damages in this regard
from “March 5, 2008 through the date of the judgment
rendered herein,” id. at PageID 3682, reasoning that
Landowners’ unjust enrichment claims were governed
by the six-year statute under Ohio Revised Code
(“O.R.C.”) § 2305.07.
Columbia Gas had argued, among other things, that
Landowners “had no ownership right in the stratum,”
and that “if [Landowners] have no rights in that
formation, then they cannot have conferred a benefit
upon Columbia by ‘allowing’ its storage of natural gas
there.” R. 118-1, PageID 3679. In rejecting that
argument, the district court concluded that the Ohio

App. 13
Supreme Court’s “use of the terms ‘limited’ and ‘not
absolute’ in Chance signifies that some residual rights
in the subsurface strata belong to the surface
landowner[s],” and thus Columbia Gas is liable to the
Landowners for unjust enrichment. Id.
On appeal, Columbia Gas does not challenge the
district court’s holding that it is liable for unjust
enrichment. Instead, Columbia Gas asserts that
Landowners’ claims for additional unjust enrichment
damages claims are “precluded on another ground,”
because in view of Chance, “where a landowner does
not use the subsurface, the landowner has no benefit to
confer (or at least no benefit that it would be
inequitable for an alleged occupier to retain) and an
unjust enrichment claim is thus unavailable as a
matter of law.” Appellee Br. at 44. For the reasons
explained below, Columbia Gas’s position has merit.
However, before we address the merits of this
substantive argument, we must address the significant
procedural issue noted earlier: did Columbia Gas need
to file a cross-appeal in order to preserve its argument
to affirm the damages judgment on the ground that
Columbia Gas has no underlying liability?
1.
“[F]rom its earliest years,” the Supreme Court “has
recognized that it takes a cross-appeal to justify a
remedy in favor of an appellee.” Greenlaw v. United
States, 554 U.S. 237, 244–45 (2008). The appellee who
does not file a cross-appeal “may not ‘attack the decree
with a view either to enlarging his own rights
thereunder or of lessening the rights of his adversary.’”
Jennings v. Stephens, 135 S. Ct. 793, 798 (2015)

App. 14
(quoting United States v. Am. Ry. Express Co., 265 U.S.
425, 435 (1924)); see also United States v. Burch, 781
F.3d 342, 344 (6th Cir. 2015). However, should an
appellee elect not to file a cross-appeal, the appellee
may “urge in support of a decree any matter appearing
in the record, although his argument may involve an
attack upon the reasoning of the lower court or an
insistence upon matter overlooked or ignored by it.”
Am. Ry. Express Co., 265 U.S. at 435.
Applying these principles in Burch, we refused to
entertain the argument that the district court had
abused its discretion by extending the appellant’s time
to file a notice of appeal. Because the government in
that case had not filed a cross-appeal, entertaining its
arguments would have been an impermissible attack
on, and infringement of, the appellant’s right to appeal.
See Burch, 781 F.3d at 344–45. Columbia Gas, by
contrast, does not attack the underlying damages
award to the Landowners for their unjust enrichment
claims. Columbia Gas, instead, argues an alternative
basis for affirmance by attacking the reasoning of the
district court’s judgment. This is a distinction with a
difference. By arguing in support of the district court’s
judgment on an alternative basis, instead of arguing for
the reversal of the judgment, we may consider
Columbia Gas’s alternative argument for affirmance
sans cross-appeal.
As described by Wright & Miller, “[i]t is proper to
hold that the award already made cannot be reversed
without cross-appeal. The argument that no award was
proper, however, should be accepted to the extent that
it simply defeats an increase that otherwise might

App. 15
seem appropriate.” Wright & Miller, Federal Practice
and Procedure § 3904 (2d ed.). The cross-appeal
doctrine, by its nature, is designed “to foster repose,
providing early notice to the parties of the extent to
which a judgment will be challenged by appeal.” Id.
Indeed, it is important that the appellant have fair
notice regarding the grounds on which the appellee
intends to defend the judgment. Assuming the
appellant has fair notice of appellee’s arguments, the
cross-appeal doctrine should be flexibly administered
in the instances where there is a “blurring of the line
between support and modification of a judgment that
occurs when arguments are made that can be limited
to support of the judgment but that logically would
require modification.” Id.
The Seventh Circuit’s opinion in In re Oil Spill by
Amoco Cadiz off Coast of France on March 16, 1978,
954 F.2d 1279 (7th Cir. 1992) (per curiam) illustrates
these principles. In In re Oil Spill, the defendantappellee argued that the plaintiffs-appellants should
not be awarded additional prejudgment interest
because they should not have been awarded
prejudgment interest in the first instance. Id. at
1333–35. The defendant-appellee did not try to defend
the district court’s award of prejudgment interest and
argued that “the French plaintiffs should count
themselves lucky. Because the district court could (and
in [the defendant’s] view should) have declined to
award any prejudgment interest, [the defendant]
insist[ed] that the French plaintiffs were not entitled to
an increase.” Id. at 1333. The plaintiffs-appellants
countered that this argument was not preserved
because the defendant-appellee did not file a cross-

App. 16
appeal. The Seventh Circuit disagreed, reasoning that
although the defendant “[could not] obtain a favorable
alteration in the judgment without a cross-appeal, [] it
may urge in defense of the judgment any argument
preserved below—even an argument the logical
implications of which would call for a different
judgment,” and thus proceeded to consider the
argument. Id. (citation omitted); see also Baca v. Ladd,
77 F.3d 480, 1996 WL 46567, at *4 (5th Cir. 1996)
(unpublished table opinion) (holding that the court
could consider appellee’s argument absent a crossappeal that appellant was not the prevailing party
because appellant would “not be entitled to increase the
amount of attorneys’ fees awarded to him”).
Columbia Gas’s argument is similar to the
appellee’s argument in In re Oil Spill and Baca. In
making the argument that Landowners’ unjust
enrichment claims are “precluded on another ground,”
Columbia Gas does not ask us to reverse the district
court’s judgment. Absent a cross-appeal, that argument
would be improper for us to consider. Instead,
Columbia Gas makes this argument as an alternative
basis for affirming the district court’s damages award
by tacitly arguing that Landowners should not have
been awarded damages in the first instance. Moreover,
there is no indication that Landowners have been
caught off guard by Appellee’s argument on appeal.
Indeed, Appellants argued in their opening brief that
they may pursue their unjust enrichment claims
independent of their trespass claims and rebutted
Columbia Gas’s alternative argument in their reply
brief. Thus, the “flexible” administration of the crossappeal doctrine is justified in this circumstance, as

App. 17
Landowners were given fair notice of Columbia Gas’s
position.
In considering Columbia Gas’s alternative
argument, we are aware that it requires us to conclude
that even though the district court found Columbia Gas
liable to Landowners for their unjust enrichment
claims and subsequently awarded them damages, no
further damages should be allowed because no
damages should have been awarded at all. However,
because Columbia Gas’s alternative argument accepts
that it must pay the damages that were awarded, it
does not run afoul of the cross-appeal doctrine. It seeks
no change in the district court’s judgment, which, as
explained by Wright & Miller, is a key consideration for
whether an appellee’s argument requires a crossappeal:
The abstract incongruity of affirming on grounds
that logically dictate reversal should not stand
in the way. It is enough that the arguments are
properly presented in the district court and the
court of appeals. The uncertain virtues of crossappeal requirements should not be pressed to
the point of preserving a pleasing symmetry of
opinion. The appellant’s interest in repose is
sufficient served by preserving its judgment.
Wright & Miller, supra, § 3904.
Given these considerations, and the fact that there
was no unfair surprise to Landowners from Columbia
Gas’s alternative argument, no cross-appeal was
required for Columbia Gas to argue for affirmance on
this ground.

App. 18
2.
We now turn to the merits of the alternative
argument. Under Ohio law, “[u]njust enrichment
occurs when a person ‘has and retains money or
benefits which in justice and equity belong to another,
while restitution is the common-law remedy designed
to prevent one from retaining property to which he is
not justly entitled.” Johnson v. Microsoft Corp., 834
N.E.2d 791, 799 (Ohio 2005) (citation and internal
quotation marks omitted). To establish an unjust
enrichment claim, the plaintiff must demonstrate:
“(1) a benefit conferred by a plaintiff upon a defendant;
(2) knowledge by the defendant of the benefit; and
(3) retention of the benefit by the defendant under
circumstances where it would be unjust to do so
without payment.” Id. (quoting Hambleton v. R.G.
Barry Corp., 465 N.E.2d 1298, 1302 (Ohio 1984)).
According to Landowners, Columbia Gas unjustly
enriched itself by using the Landowners’ subsurface to
store its gas without paying fair rental rates for that
storage. As the record confirms, and as discussed
above, the Landowners do not have a “reasonable and
foreseeable use” of their subsurface. As such, the
Landowners do not have a present possessory interest
in their subsurface and by extension, lack the present
ability to exclude Columbia Gas from its subsurface.
See Chance, 670 N.E.2d at 922. Just as this fact was
fatal to Landowners’ indirect trespass claim, it is also
fatal to Landowners’ unjust enrichment claims. Cf.
Sandy v. Rataiczak, No. 08 NO 347, 2008 WL 5059371,
at *5 (Ohio Ct. App. Nov. 25, 2008) (holding that
because defendants’ actions could not constitute a

App. 19
trespass, plaintiff was
enrichment damages).

not

entitled

to

unjust

Absent the “absolute right to admit or exclude
persons,” a landowner does not have a possessory
interest in that property. See Martin v. Lambert, 8
N.E.3d 1024, 1033 (Ohio Ct. App. 2014) (citations
omitted). And under Ohio law, a property owner cannot
transfer an interest in her or his property greater than
the one she or he currently has. Cf. Cooper v. Roose, 85
N.E.2d 545, 547 (Ohio 1949) (explaining that when a
landlord issues a rental argument with tenant, “the
power and the right to admit . . . and to exclude” is
generally transferred to the tenant). Thus, because
Landowners did not have a possessory interest in their
subsurface, they were not able to transfer that interest
to Columbia Gas. And because Landowners could not
transfer that possessory interest in their subsurface, it
follows that the possessory interest in the subsurface
could not have been a benefit conferred by the
Landowners upon Columbia Gas. Therefore,
Landowners’ unjust enrichment claims fail because
Landowners could not show, as they must, that they
conferred a benefit upon the defendant. We therefore
AFFIRM the district court’s grant of summary
judgment to Columbia Gas with respect to Landowners’
unjust enrichment claims.
III.
For the reasons explained above, we AFFIRM the
district court’ judgment.

App. 20

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:14-cv-505
MAGISTRATE JUDGE
THOMAS M. PARKER
[Filed February 26, 2018]
__________________________
RICHARD BAATZ, et. al., )
)
Plaintiffs,
)
)
v.
)
)
COLUMBIA GAS
)
TRANSMISSION, LLC,
)
)
Defendant.
)
__________________________ )
ORDER ON LANDOWNERS’ UNJUST
ENRICHMENT CLAIM
Defendant Columbia Gas Transmission, LLC
(“Columbia”) moved for summary judgment on
plaintiffs’ (“Landowners”) remaining claims for
trespass and unjust enrichment. ECF Doc. 89. The
court previously granted Columbia’s motion for
summary judgment on the Landowners’ trespass claim

App. 21
but deferred judgment on the Landowners’ unjust
enrichment claim. ECF Doc. 118. The court ordered the
parties to submit an agreed calculation of the amount
of prejudgment interest that would be due on the just
compensation amounts determined by the Booth
Commission from May 5, 2008 through the date of the
payment of the just compensation amounts. On
February 26, 2018, the parties filed a joint response to
the court’s order. ECF Doc. 120. The court now
GRANTS Columbia’s motion for summary judgment on
the Landowners’ remaining, Count Two unjust
enrichment claim.
In their joint response to the court’s memorandum
of opinion and order, the parties agreed to an interest
calculation on each of the just compensation payments
and further stipulated that the total of the just
compensation amounts and prejudgment interest
should be entered as a final judgment in Columbia Gas
Transmission, LLC v. Booth, et al., Case No. 1:16-cv1418. As explained in the court’s memorandum of
opinion and order, an award of just compensation and
prejudgment interest in Booth necessarily means that
there would be no further damages to be awarded on
the Landowners’ unjust enrichment claim in this
action. ECF Doc. 118, Page ID# 3653. The payment of
just compensation, including prejudgment interest
from May 5, 2008, in Booth will fully compensate the
Landowners for any unjust enrichment they may have
conferred upon Columbia.
In accordance with the court’s previous
memorandum of opinion and order (ECF Doc. 118) and
the parties’ joint response thereto (ECF Doc. 120), the

App. 22
court GRANTS Columbia’s motion for summary
judgment on the Landowners’ unjust enrichment claim
(Count Two).
IT IS SO ORDERED.
Dated: February 26, 2018
/s/Thomas M. Parker
Thomas M. Parker
United States Magistrate Judge

App. 23

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:14-cv-505
MAGISTRATE JUDGE
THOMAS M. PARKER
[Filed February 26, 2018]
__________________________
RICHARD BAATZ, et. al., )
)
Plaintiffs,
)
)
v.
)
)
COLUMBIA GAS
)
TRANSMISSION, LLC,
)
)
Defendant.
)
__________________________ )
FINAL JUDGMENT ENTRY
Defendant Columbia Gas Transmission, LLC
(“Columbia”) is granted summary judgment on Counts
One (Trespass) and Two (Unjust Enrichment) of
plaintiffs’ (“Landowners”) second amended complaint.
ECF Doc. 46. The court previously dismissed Counts
Three (Mandamus – Inverse Condemnation), Four
(Declaratory Judgment), and Five (Permanent

App. 24
Injunction) pursuant to Fed. R. Civ. P. 12(b)(6). ECF
Doc. 58.
Judgment is rendered in favor of defendant,
Columbia Gas Transmission, LLC, pursuant to Rule
58, Fed. R. Civ. P., on all claims asserted in the
Landowners’ Second Amended Complaint. Costs shall
be taxed to Defendant Columbia Gas Transmission,
LLC.
IT IS SO ORDERED.
Dated: February 26, 2018
/s/Thomas M. Parker
Thomas M. Parker
United States Magistrate Judge

App. 25

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:14-cv-505
MAGISTRATE JUDGE
THOMAS M. PARKER
[Filed February 14, 2018]
__________________________
RICHARD BAATZ, et. al., )
)
Plaintiffs,
)
)
v.
)
)
COLUMBIA GAS
)
TRANSMISSION, LLC,
)
)
Defendant.
)
__________________________ )
AMENDED MEMORANDUM OF OPINION
AND ORDER
I.

Introduction

Plaintiffs in this action are the owners of residential
lots in Medina County, Ohio (“Landowners”).
Defendant Columbia Gas Transmission, LLC
(“Columbia”) is a wholesale producer and distributor of

App. 26
natural gas which established a 10,000 acre
underground natural gas storage facility in the Clinton
sandstone formation in Medina County (the “Medina
Storage Field”). Columbia was authorized – and
required – to construct and operate the Medina Storage
Field by the former Federal Power Commission in
1958, and it has stored natural gas in that facility since
1959. Federal law authorizes natural gas facility
operators to take property by eminent domain to
accomplish the purposes set forth in certificates of
public convenience and necessity under the Natural
Gas Act. Despite receiving a certificate in 1958 and
operating the Medina Storage Field since 1959,
Columbia did not seek to acquire underground gas
storage easements under the Landowners’ properties
until 2014. The Landowners sued for trespass and
unjust enrichment damages. Columbia has moved for
summary judgment on the Landowners claims. ECF
Doc. 89. The Landowners have also moved for partial
summary judgment, seeking a liability determination
that Columbia has trespassed on each of the
Landowners’ properties since 1959 and a declaration
that the trespass was malicious. EFC Doc. 86. Because
the Landowners have no evidence that Columbia’s
conduct has caused actual damage to Landowners’
properties or has in any way interfered with
Landowners’ use or anticipated use of their properties,
and because Columbia’s construction and operation of
the Medina Storage Field was mandated by federal
agency action, Columbia cannot be liable to the
Landowners for trespass. In addition, because
Landowners will receive just compensation for
Columbia’s taking in a companion action, Columbia’s
only potential liability on an unjust enrichment claim

App. 27
is for interest on the just compensation amount it is
required to pay. The court will direct the parties to
submit an agreed calculation of the prejudgment
interest amount. As a result, Columbia’s motion for
summary judgment will be GRANTED in PART and
DEFERRED in PART and Landowners’ motion for
partial summary judgment will be DENIED.
II.

Procedural
Asserted

Background

and

Claims

The Landowners instituted this action on March 5,
2014. Doc. 1. They asserted claims similar to those
alleged in an earlier-filed putative class action case in
the Southern District of Ohio, Wilson et al v. Columbia
Gas Transmission, LLC, Case No. 2:12cv01203 (S.D.
Ohio 2012). None of the plaintiffs in this case was an
original party in Wilson; but Columbia is the defendant
in both cases. On April 22, 2014, Columbia filed an
amended counterclaim in Wilson joining the Medina
Landowners as counterclaim defendants. The next day,
Columbia moved to dismiss the instant case, asserting
that Wilson, the first filed case, had priority. On March
5, 2015, Judge Wells granted Columbia’s motion to
dismiss. ECF Doc. Nos. 18, 19. On February 24, 2016,
the Sixth Circuit reversed the dismissal and remanded
the case. ECF Doc. No. 22. Taking a suggestion by the
court of appeals, Columbia moved to stay this case.
ECF Doc. No. 27. On May 4, 2016, Judge Gwin1 denied
defendant’s motion to stay due, in part, to delays in

1

The action was reassigned to Judge James S. Gwin after the
retirement of Judge Wells.

App. 28
Wilson and the appropriateness of venue in the
Northern District of Ohio.
On May 26, 2016, Columbia and the Medina
Landowners jointly requested that their claims in
Wilson be severed and transferred to the Northern
District of Ohio. That request was granted, and on
June 10, 2016, the case was transferred to the
Northern District of Ohio and recaptioned Columbia
Gas Transmission, LLC v. Booth, et a., 1:16cv01418
(“Booth.”) Shortly thereafter, Columbia filed an
Amended Complaint in condemnation against the
Landowners in Booth.2
On May 27, 2016, one day after the parties’ joint
request to sever and transfer their claims in Wilson,
Columbia moved to dismiss the instant case, arguing
that its assertion of a condemnation claim in Booth
mooted certain claims in this case. ECF Doc. Nos. 32,
33. Columbia contended that all of the Landowners’
other claims were preempted by the NGA.
On December 22, 2016, the court granted, in part,
Columbia’s motion to dismiss. ECF No. 58. Plaintiffs’
claims for mandamus/inverse condemnation (Count
Three), declaratory judgment (Count Four), and
permanent injunction (Count Five) were dismissed.
The court declined to dismiss the claims for trespass
(Count One) and unjust enrichment (Count Two).

2

On December 5-8, 2017, a hearing took place in Booth before a
Commission appointed to determine just compensation for the
taking of plaintiffs’ subsurface property rights. On January 12,
2018, the Commission issued a report recommending the amount
of just compensation to be awarded to the landowners.

App. 29
The Landowners premise their trespass and unjust
enrichment claims on the contention that Columbia
had no right to store natural gas beneath their
properties prior to the acquisition of property rights by
eminent domain. In Count One, the Landowners claim
that Columbia maliciously trespassed and should be
liable for nominal, compensatory, and punitive
damages and for attorney fees. Count Two asserts that
Columbia has been unjustly enriched by being able to
store natural gas beneath their properties without cost
since 1959. The Landowners claim Columbia should be
required to disgorge what it would have paid for such
gas storage, or the net profit it earned from storing
natural gas beneath their properties. They also
impliedly claim Columbia was unjustly enriched by
retaining the money it would have paid as just
compensation for its taking of their properties.
III.

Factual and Regulatory Background

The following facts are undisputed and/or
established by the Rule 56 evidence. Columbia is an
interstate natural gas company as defined by Section
2(a) of the Natural Gas Act (“NGA”). ECF Docs. 46, 66.
Columbia operates an extensive interstate natural gas
transportation and storage system that includes one of
North America’s largest underground natural gas
storage systems (37 storage fields in four states with
nearly 600 billion cubic feet in total capacity). Id. The
Medina Storage Field is one of those facilities. Id. The
Medina Storage Field exists within the Clinton
sandstone formation located approximately 3,000 feet
beneath the surface of the land. Id. Columbia injects
natural gas into these storage fields during the

App. 30
summer months when gas demand is low and
withdraws the storage gas during the winter months
when demand is high, in order to stabilize the supply
and, as a result, the price of natural gas. Id.
The Natural Gas Act (“NGA”), 15 U.S.C. § 717 et
seq. regulates Columbia’s interstate natural gas
operations. Id. The NGA authorizes the Federal Energy
Regulatory Commission (“FERC”) to issue certificates
of public convenience and necessity to undertake the
construction and maintenance of facilities for the
transportation, distribution and sale of natural gas.
15 U.S.C. § 717f(c). Pursuant to the NGA, Columbia’s
predecessor, the Ohio Fuel Gas Company, obtained a
certificate of public convenience and necessity (“1958
Certificate”) from the Federal Power Commission –
FERC’s predecessor – (ECF Doc. 55-1, Page ID# 831834)3 for the “conversion of Applicant’s depleted Clinton
Sand of the Medina gas producing field in Medina
County, Ohio, into a gas storage field” on July 21, 1958.
Id. at Page ID# 832. Ohio Fuel Gas submitted
application G-14269 for the certificate on January 6,
1958; the Federal Power Commission granted
“[t]emporary authority to construct and operate” the
proposed facilities on May 27, 1958, two months prior
to the issuance of the certificate. Id.

3

Columbia Gas Transmission Corporation merged with The Ohio
Fuel Gas Company and others on December 14, 1971. (ECF Doc.
55-2, Page ID# 837, et. seq.) Columbia Gas Transmission
Corporation changed its name to Columbia Gas Transmission, LLC
on December 9, 2008. (ECF Doc. 55-4, Page ID# 910-913.) For ease
of reference, the court will refer to the actions of Ohio Fuel Gas
Company as if they had been taken by Columbia.

App. 31
On April 10, 1987, Columbia filed an application
with the Federal Energy Regulatory Commission
(“FERC”) for a certificate of public convenience and
necessity “authorizing the continued operation of five
of its existing storage fields…as currently constituted
and operated; namely... [the] Medina Storage Field in
Medina County, Ohio.” (ECF Doc. 55-3, Page ID# 907908) FERC issued the Certificate on November 2, 1987
(the “1987 Certificate”). Id.
Once FERC issues a certificate of public
convenience and necessity, a certificate holder does not
have the right to “abandon all or any portion of its
facilities, subject to the jurisdiction of the Commission,
or any service rendered by means of such facilities
without the permission and approval of the
Commission . . . .” 15 U.S.C. § 717f(b).
The NGA grants the right of eminent domain to
FERC certificate holders as follows:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner of
property to the compensation to be paid for, the
necessary right-of-way to construct, operate, and
maintain a pipe line or pipe lines for the
transportation of natural gas, and the necessary
land or other property, in addition to right-ofway, for the location of compressor stations,
pressure apparatus, or other stations or
equipment necessary to the proper operation of
such pipe line or pipe lines, it may acquire the
same by the exercise of the right of eminent
domain in the district court of the United States

App. 32
for the district in which such property may be
located, or in the State courts. The practice and
procedure in any action or proceeding for that
purpose in the district court of the United States
shall conform as nearly as may be with the
practice and procedure in similar action or
proceeding in the courts of the State where the
property is situated: Provided, That the United
States district courts shall only have jurisdiction
of cases when the amount claimed by the owner
of the property to be condemned exceeds $3,000.
15 U.S.C. §717f(h)(emphasis added). None of the
Landowners owned their property as of the date of the
issuance of either the 1958 or the 1987 Certificates.
The earliest any of them acquired their property was
1991. (ECF Doc. 93-1, Page ID# 3116.) In 2013,
Columbia offered each of the Medina Landowners
$250.00 per lot in return for the grant of an easement
permitting underground gas storage beneath their
properties.4 None of the Medina Landowners accepted
this offer. ECF Docs. 46, 66.
IV.

Standard of Review

Under Fed. R. Civ. P. 56(a), summary judgment
must be granted if “the movant shows that there is no
genuine dispute as to any material fact and that the
movant is entitled to judgment as a matter of law.” A
dispute of fact is “genuine” if “the [record] evidence is
4

In ¶¶ 3-31 of the Second Amended Complaint (Doc. 46), plaintiffs
allege that their respective properties are within the “certificated
boundaries” of the Medina Storage Field. Defendant admitted
these allegations as to some of the defendants. (Doc. 66, ¶3-31)

App. 33
such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248, 106 S.Ct.2505, 91 L.Ed.2d 202
(1986). As a result, “[c]onclusory allegations, conjecture
and speculation . . . are insufficient to create a genuine
issue of fact.” Kerzer v. Kingly Mfg., 156 F.3d 396, 400
(2d Cir. 1998) (citation omitted); see also Fed. R. Civ. P.
56 (e)(2). As the Supreme Court has explained, “[the
non-moving party] must do more than simply show
that there is metaphysical doubt as to the material
facts.” Matsushita Elec., Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 585-86, 106 S.Ct. 1348, 89
L.Ed.2d 538 (1986). As for the materiality requirement,
a dispute of fact is “material” if it “might affect the
outcome of the suit under the governing law.”
Anderson, 477 U.S. at 248. “Factual disputes that are
irrelevant or unnecessary will not be counted.” Id.
In determining whether genuine issues of material
fact exist, the court must resolve all ambiguities and
draw all reasonable inferences against the moving
party. Anderson, 477 U.S. at 255. In addition, “[the
moving party] bears the initial responsibility of
informing the district court of the basis for its motion,
and identifying those portions of the [record] which it
believes demonstrate the absence of any genuine issue
of material fact.” Celotex v. Catrett, 477 U.S. 317, 32324, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986); see also Fed.
R. Civ. P. 56(c), (e). However, when the moving party
has met this initial burden of establishing the absence
of any genuine issue of material fact, the nonmoving
party must come forward with specific facts showing a
genuine dispute of material fact for trial. Fed R. Civ. P.
56(c), (e).

App. 34
V.

Law and Analysis

The Landowners trespass and unjust enrichment
claims are premised on the belief that Columbia’s right
to store natural gas in the Medina Storage Field was
conditioned upon its acquisition of property rights – gas
storage easements – from the Landowners. ECF Doc.
100, Page ID#3471-3472 (“Columbia is now seeking to
condemn the properties for their use through the Booth
case despite having the authority and obligation to do
so at the earliest since 1958.” (Emphasis added)). The
1958 and 1987 Certificates and the applicable statute
and regulations indicate otherwise.
The 1958 Certificate authorized the construction
and operation of the Medina Storage Field “upon the
terms and conditions of this order.” ECF Doc. 55-1,
Page ID# 833. The terms and conditions included the
obligation to comply with specified subsections of
“Section 157.20 of the Commission’s Regulations under
the Natural Gas Act.”5 None of the requirements of
that regulation mandated the completion of the
eminent domain process established in 15 U.S.C.
§ 717f(h), and none of the express conditions of the
1958 Certificate did either. Moreover, the 1958
Certificate expressly acknowledged that the Federal
Power Commission had granted Columbia temporary
authority to construct and operate the facilities that
had been proposed as of May 27, 2958, two months
before the 1958 Certificate was issued. ECF Doc. 55-1,
Page ID# 832. Thus, Columbia was authorized to store
gas in the Clinton sandstone formation constituting the
5

This regulation is now codified at 18 C.F.R. § 157.20.

App. 35
Medina Storage Field before obtaining gas storage
easements from the surface land owners.
The 1987 Certificate similarly imposed a
requirement that Columbia comply with “all applicable
Commission Regulations under the Natural Gas Act
and particularly the general terms and conditions set
forth in…Section 157.20 of such Regulations.” ECF
Doc. 55-3, Page ID#907-908. None of those regulations
mandated the immediate completion of eminent
domain actions. Nothing in 15 U.S.C. §717 et. seq.
conditions the validity of a certificate of public
convenience and necessity upon the completion of
eminent domain easement acquisitions. Indeed,
§ 717f(h) expressly indicates that eminent domain may
be used to acquire rights of way “or other property, in
addition to right-of-way” needed to construct and
operate the natural gas facility.
To say it another way, the Landowners have cited
no law – and the court has found none – standing for
the proposition that a certificate of public convenience
and necessity for the underground storage of natural
gas is automatically invalidated because a certificate
holder fails to pursue eminent domain acquisition of
gas storage easements at or about the time it begins to
store natural gas. The necessary conclusion from this
analysis is that Columbia, while it undoubtedly should
have completed the acquisition of storage easements,
had the right – and indeed was obligated – to store
natural gas in the Medina Storage Field not later than
three years after the 1958 Certificate was issued. ECF
Doc. 55-1, Page ID# 833, ¶ (C).

App. 36
The question this case presents is whether
Columbia’s storage of natural gas in the Medina
Storage Field without having condemned gas storage
easements by eminent domain constitutes trespass.
Also, the court must determine whether such conduct
has unjustly enriched Columbia.
A. Trespass Claim
The Landowners all own residential lots in Medina
County. Collectively, the Landowners’ properties make
up a little more than five acres of the approximate ten
thousand acres of Columbia’s Medina Storage Field.6
They contend Columbia “is storing and has stored
natural gas” beneath their properties without their
permission and before completing eminent domain
proceedings.” ECF Doc. 46, Page ID# 48. Plaintiffs do
not allege Columbia ever trespassed on the surface of
their properties in order to construct or operate the
Medina Storage Field. Instead, they allege Columbia’s
stored natural gas indirectly entered the Clinton
sandstone formation under their lands from remote
injection sites. The Landowners assert that the
“nearest wellheads are 800 feet from [their properties].”
ECF Doc. 100, Page ID# 3473.
The court must apply Ohio law regarding trespass
and unjust enrichment claims. See Baker v. Chevron
USA, Inc., 533 Fed. Appx. 509 (6th Cir., Aug. 2, 2013).

6

Columbia has pointed out that not all of the plaintiffs actually
own land above the Medina Storage Field. For purposes of this
order, the court will refer to all of the plaintiffs as “Landowners,”
but it will distinguish among the plaintiffs in its final disposition
of the action.

App. 37
And, because the Ohio Supreme Court decision in
Chance v. BP Chemicals, Inc., 77 Ohio St.3d 17 (1996)
first recognized and defined an Ohio cause of action for
subsurface trespass, the court must determine its
applicability here. Columbia argues that Chance is
fatal to the Landowners trespass and unjust
enrichment claims as a matter of law under the
undisputed facts. The Landowners contend that the
Ohio Supreme Court expressly ruled that Chance is
inapplicable to cases involving “oil and gas issues.”
ECF Doc. 100, Page ID# 3476.
In Chance, the Ohio Supreme Court confronted a
claim that BP Chemicals had trespassed upon
plaintiff’s land by injecting hazardous wastes into a
subsurface stratum at a remote location which
eventually migrated to areas beneath plaintiff’s land.
The Court began its analysis of the plaintiff’s trespass
claim by defining their property rights. The Court
rejected the ancient maxim that a property owner owns
everything above and below the land to an indefinite
extent, finding it incompatible with a modern
understanding of land use and property ownership. The
Court observed, “[O]wnership rights in today’s world
are not so clear-cut as they were before the advent of…
injection wells.” 77 Ohio St.3d at 23. The Court had
earlier limited the air rights of landowners. In
Willoughby Hills v. Corrigan, 29 Ohio St.2d 39, 50 278
N.E. 2d 658, 664 (1972), the Supreme Court ruled: “We
own so much of the space above the ground as we can
occupy or make use of, in connection with the
enjoyment of our land. This right is not fixed. It varies
with our varying needs and is coextensive with them.
The owner of land owns as much of the space above

App. 38
him as he uses, but only so long as he uses it.” Id.
(quoting Hinman v. Pacific Air Transp. 84 F.2d 755,
758 (9th Cir. 1936)).
Chance extended Willoughby Hills by concluding
that a property owners’ subsurface rights also are not
absolute: “[W]e find that there are also limitations on
property owners’ subsurface rights. We therefore
extend the reasoning of Willoughby Hills, that absolute
ownership of air rights is a doctrine which ‘has no place
in the modern world,’ to apply as well to ownership of
subsurface rights.” 77 Ohio St.3d at 23. Chance held
that the landowners in that action did “not enjoy
absolute ownership of the waters of the state below
their properties, and therefore… their subsurface
ownership rights are limited.” Id. Chance plainly
stands for the proposition that property owners in the
current age do not enjoy “absolute ownership” of the
subsurface strata beneath their properties.
Chance further held, under the “unique facts”
involved there, the landowners’ “subsurface rights in
their properties include[d] the right to exclude
invasions of the subsurface property that actually
interfere[d] with [the owners’] reasonable and
foreseeable use of the subsurface.” Id. at 23-24. If a
landowner’s right to exclude a subsurface invader is
limited to those portions of the subsurface the
landowner actually uses or foreseeably may use, then
Chance should also stands for the converse proposition
that one has no right to exclude a subsurface “invader”
from portions of the subsurface that one does not use.
An invader’s use of subsurface strata not used by the
surface owners would not be unlawful. That is precisely

App. 39
how Chance was characterized in the district court’s
summary judgment ruling in Baker v. Chevron USA
Inc., 2009 U.S. Dist. LEXIS 110524 (S.D. Ohio, Nov. 4,
2009), aff’d. 533 Fed. Appx. 509 (6th Cir., Aug. 2, 2013):
“In the end, the Chance court held that plaintiff’s had
not demonstrated an unlawful entry on their properties
by BP.” Id. at *27 (emphasis added).
Here, the facts are undisputed that the Landowners
have never used and had no plans to use the Clinton
sandstone formation beneath their properties. Applying
Chance requires the conclusion that Columbia’s
injection of its natural gas into that formation was not
trespass because the Landowners had no right to
exclude Columbia from using that stratum. Moreover,
Columbia’s possession of the 1958 and 1987
Certificates – which both authorized and required it to
store natural gas in the Medina Storage Field –
buttresses that conclusion. Much like BP Chemicals in
Chance, Columbia received governmental permission to
engage in the very activities about which the
Landowners now complain.
Chance also recognized a trespass claim when the
surface landowner could demonstrate that the
subsurface invasion had caused actual physical damage
to the property. Speculative stigma damages to real
estate values allegedly arising from the presence of the
subsurface hazardous waste injectate, however, were
found insufficient to establish the actual damages
needed to support a trespass claim. Because the
plaintiffs in Chance failed to show actual physical
damages to their properties or actual interference with
the reasonable and foreseeable use thereof, they failed,

App. 40
as a matter of law, to establish an unlawful entry onto
– or trespass upon – their properties. The Supreme
Court concluded the trial court should have entered a
directed verdict in favor of BP. Chance, 77 Ohio St.3d
at 27-28.
Chance has been applied to other state and federal
indirect trespass claims. In Lueke v. Union Oil Co. of
Cal, 2000 Ohio App. LEXIS 4845 (6th Dist.), the Ohio
Court of Appeals affirmed summary judgment against
a landowner who alleged gasoline contamination of a
groundwater well from a nearby leaking underground
storage tank, holding:
In cases of indirect trespass, damages are not
presumed, and actual damages in the form of
“physical damages or interference with use”
must be shown before the person suing for
trespass can prevail. [Chance] at 26-28.
Furthermore, the damages must be
“substantial.” Williams v. Oeder (1995), 103
Ohio App.3d 333, 339; and Brown v. County
Commissioners of Scioto County (1993), 87 Ohio
App.3d 704, 717. See, also, Prosser, Law of Torts
(5 Ed.1984) 67-69, and 82-83, Section 13.
Id. at *7. Summary judgment was affirmed because
Lueke had not suffered a substantial or unreasonable
interference with her use and enjoyment of the
property. Id. at *8.
In Baker v. Chevron USA Inc., 533 Fed. Appx. 509
(6th Cir., Aug. 2, 2013), the Sixth Circuit applied
Chance to an indirect trespass claim involving a
subsurface liquid waste plume from a petroleum

App. 41
refinery that migrated to within fifty to seventy feet of
the surface of plaintiffs’ properties. The Sixth Circuit
upheld the district court’s application of Chance to the
facts of Baker and affirmed the grant of summary
judgment against the property owners:
We agree with Chevron that plaintiffs have to
show something more than the “mere detection”
of soil vapors on their properties to establish the
physical damage prong of an indirect trespass
claim. Under Chance, plaintiffs must produce
evidence showing that (1) the plume or its soil
vapors have invaded their property, and (2) that
invasion has caused either substantial physical
damage to the land or substantial interference
with their reasonable and foreseeable use of the
land. These elements are plainly apparent in
Chance because, as the court explained, even if
it assumed that BP’s injectate invaded the
plaintiffs’ properties, the plaintiffs were still
required to show that the invasion physically
damaged the property or interfered with their
use and enjoyment of the property. Chance, 670
N.E.2d at 993; see also Rini v. Dyer, No.
07CA3180, 2008 Ohio 4172, 2008 WL 3824790,
*5 (2008) (unpublished) (“‘[W]here property
owners are relying on a theory of “indirect”
trespass, there is no presumption of
damages.’”)(quoting 88 Ohio Jur. 3d Trespass
§ 19); Ramirez v. Akzo Nobel Coatings, Inc., 153
Ohio App.3d 115, 2003 Ohio 2859, 791 N.E.2d
1031, 1034 n.2 (Ohio Ct. App. 2003).
Id. at 522-523.

App. 42
Here, the Landowners rely on Chance to argue that
“Ohio recognizes underground trespass as a distinct
tort with distinct mechanics to award damages,” but
then insist that the court must not actually apply
Chance. ECF Doc. 100, Page ID# 3478. The
Landowners assert that they have cited Chance “for its
dicta definition of trespass, but not its applicability to
the case at bar.” Id. at Page ID# 3477, n.3. Instead, the
Landowners argue the court should use the definition
of trespass found in Apel v. Katz, 83 Ohio St.3d 11, 19,
697 N.E.2d 600 (1998). But the Landowners’ brief
neglected to point out that Apel relied in part on
Chance for the elements of a trespass claim.
The Landowners assert that different legal tests
should determine subsurface trespasses claims arising
from the lateral migration of injected wastes or
chemicals as compared to trespass claims resulting
from injected natural gas. This court concludes that
such a distinction does not exist. Trespass is, by
definition, an unapproved entry upon the land of
another. And the Ohio Supreme Court has made it
clear that subsurface trespasses are not actionable
unless the invaded landowner can prove actual damage
to the property or actual interference with the actual or
foreseeable use of the land.
In recognition of their lack of actual damage
evidence, the Landowners invoke Pearl v. Pic Walsh
Freight Co., 112 Ohio App.11, 12, 168 N.E.2d 571, 572
(1960) for the proposition that Columbia’s alleged
trespass at least warrants nominal damages. The hope
is that nominal damages would provide a foothold for
a jury’s consideration of punitive damages. However, in

App. 43
Pearl nominal damages were presumed and awarded
against a defendant who stored trucks and trailers on
plaintiff’s property without permission and despite
plaintiff’s demands. The presumption of nominal
damages for a surface trespass is not the issue
presented in this case. And, as the Sixth Circuit
recognized in Baker v. Chevron USA Inc., “where
property owners are relying on a theory of ‘indirect’
trespass, there is no presumption of damages.” 533
Fed. Appx. at 523. As a result, nominal damages
cannot be presumed here. Further, this court cannot
find that the appeals court decision in Pearl – which
predated Chance by thirty years – somehow takes
precedence over Chance. Pearl, decided long before a
cause of action for subsurface had been recognized in
Ohio, is simply not pertinent here.
The Landowners also rely on Bowman v. Columbia
Gas Transmission, 850 F.2d 692, 1988 U.S. App.
LEXIS 9229 (6th Cir., July 6, 1988), in which an
indirect gas-storage trespass claim was permitted to go
to trial, resulting in an award of $8,300 in
compensatory damages and $30,000 in punitive
damages. However, Bowman provides little guidance
on the validity of the Landowners’ trespass claim.
First, the Sixth Circuit expressly stated that it could
not consider Columbia’s argument that its conduct did
not constitute a trespass under Ohio law because
Columbia had not preserved the issue for appeal. Id. at
*5. . Moreover, because Bowman was decided before
Chance, neither the district court nor the Sixth Circuit
had the opportunity to consider the landowner’s
trespass claim in light of Chance. Finally, Bowman can
also be distinguished because the Bowmans proved

App. 44
that Columbia’s storage of gas interfered with their
intended use of their land; they had contracted with a
third party for the drilling of a well on their property.
In contrast, the undisputed Rule 56 evidence in this
case demonstrates that none of the Landowners had
ever attempted or intended to use the subsurface areas
of their property where Columbia stored gas. See ECF
Docs. 91 & 93.
In short, the court concludes that the holding of
Chance v. BP Chemicals, Inc. and its progeny apply to
the facts of this case.7 Thus, to recover on their indirect
subsurface trespass claims, the Landowners are
required to prove that their properties suffered actual
physical damages or that Columbia interfered with the
Landowners’ actual or reasonably foreseeable uses of
their properties. Chance, 77 Ohio St.3d at *27-28. It is
undisputed that the Landowners cannot meet this
evidentiary burden.
When asked to describe any damages to their
properties, the Landowners have responded with
speculations regarding possible stigma to their
properties. For example, in responding to a discovery
request concerning damages they had suffered due to

7

Columbia alternatively argues that, if the court does not apply
the Chance holding, it should apply the negative rule of capture
referenced in Chance and announced in R.R. Comm’n of Tex. v.
Manziel, 361 S.W.2d 560, 568 (Tex. 1968). Because the court has
determined that the Chance holding does apply here, it is
unnecessary for the court to consider whether the negative rule of
capture announced in a non-controlling Texas case should apply to
the facts of this case. The court declines to consider Columbia’s
alternative argument regarding the negative rule of capture.

App. 45
Columbia’s gas storage, Laurie and Richard Baatz
stated:
OBJECTION: * * * Without waiving my
objection, Columbia has been wrongfully storing
natural gas beneath our property since 1958
without any notice or compensation being paid.
Now that we know of the storage, we are
required to disclose it on the Ohio Residential
Property Disclosure form if we attempt to sell
our home. The loss of value of our home will be
detailed by an appraiser at the appropriate time
in this case.
Further, there is a smell of gas when you enter
our subdivision, which has been present for
quite a while. This is particularly scary given
that gas storage fields like ours have been
known to erupt, just like the eruption in
California in 2015. ECF Doc. 91-3 Page ID#
2461.
The Baatzes’ response to a question regarding any
alleged interference with their property is nearly
identical. Id. The other Landowners’ responses to these
questions are similar or identical. ECF Doc. 91-3. But
Chance expressly held that speculative stigma damages
purportedly affecting property values are not
recoverable on indirect trespass claims absent actual
physical damage or actual interference with use.
Chance, 77 Ohio St.3d at 27. In Baker, the Sixth
Circuit upheld the district court’s rejection of similar
damage claims based on the odor of gasoline. The Sixth
Circuit held that such an interference was either de
minimis or irrational and, therefore, not compensable.

App. 46
Baker 533 Fed. App’x. at 524, citing Banford v. Aldrich
Chem. Co., Inc., 126 Ohio St.3d 210 (2010). The
Landowners have offered no evidence that any of them
has suffered actual physical damages to their
properties or any evidence that Columbia actually
interfered with their use of their properties. This
evidentiary void is fatal to their trespass claims.
It is worth noting that the Landowners sought just
compensation for the same claims of stigma damage to
their property values in the Booth condemnation case,
relying upon expert testimony on property values.
Because the claim of stigma damages is necessarily
forward looking, to the extent the Landowners receive
compensation for such damages in as a result of Booth,
they would be foreclosed from seeking the same
damages here.8
The Landowners also argue that they are entitled to
storage fees for the time that Columbia stored gas
under their properties for fifty-nine years. ECF Doc.
100, Page ID# 3485-3486. Plaintiffs cite Beck v. N.
Natural Gas Co., 170 F.3d 1018, a case from the Tenth
Circuit which limited a landowners’ damages to the fair
rental value of the property9 for the period in question
and later awarded attorney fees, expenses and costs
pursuant to a Kansas statute. Beck, 170 F.3d at 1021.
8

In Ohio, an injured party is entitled to only one satisfaction for
his injuries. See Seifert v. Burroughs, 38 Ohio St. 3d 108, 110
(1988).
9

Beck resulted in an award of $100.00 per acre as the fair rental
value for the period in question. Attorneys’ fees, costs and expenses
were later assessed pursuant to Kan. Stat. Ann. § 55-1210(c)(3).

App. 47
Beck is inapplicable here. Even if the court were
determining just compensation for a property taking in
this case (rather than in Booth),10 it would be required
to apply Ohio law. See Columbia Gas Transmission
Corp. v. Exclusive Natural Gas Storage Easement, 962
F.2d 1192, 1199 (6th Cir. 1992). Because Beck applied
Kansas law and awarded damages, in part, based on a
Kansas statute, it cannot govern trespass damages in
this case.
The undisputed Rule 56 evidence is that each of the
Landowners acquired their property after Columbia
began storing gas in the Medina Storage Field. See
ECF Doc. 93-1, Page ID# 3116.11 It is also undisputed
that none of the Landowners knew of Columbia’s gas
storage operations until September 2013 when
Columbia sent them letters offering to acquire
easements by contract prior to commencing
condemnation proceedings. It is undisputed that none
of the Landowners has used the subsurface formation
in which the gas is stored. The Landowners invoke U.S.
v. Jordan, 186 F.2d 803, 808 (6th Cir. 1951) for the
proposition that they acquired a right to sue for
trespass from their predecessors in interest. Jordan
does not resolve the fundamental problem with the
Landowners’ trespass claims. Even if the principles of
Jordan were applicable, that case decides an issue that
the court need not reach here. Jordan involved a

10

As already explained, just compensation for Columbia’s taking
will be determined in the Booth case.
11

The earliest purchase of the relevant land occurred in 1991, long
after Columbia allegedly began storing gas in 1959.

App. 48
landowner’s claim for physical damages to timber on
leased property and after an express assignment of
rights by a previous owner. Jordan does nothing to
undercut the Chance requirement that there must be
actual physical damage or actual interference with use
before a subsurface trespass claim can be actionable.
Further, Jordan did not involve an allegation of
subsurface trespass. Here, there is no evidence that
any predecessor owner had suffered any actual
damages or experienced such interference. As a result,
there is no basis for concluding the Landowners
acquired any actionable trespass claim upon the
acquisition of their properties.
The application of Chance and its progeny leads to
the inescapable conclusion that Columbia is entitled to
summary judgment as a matter of law on the
Landowners’ trespass claims because they have failed
to show any physical damage or interference with the
use of their properties and because Columbia was
required to operate the Medina Storage Field under
federal law.
B. Unjust Enrichment Claim
The Landowners’ Count Two unjust enrichment
claim is the only other cause of action remaining. See
ECF Docs. 46, Page ID#749 and 58. The unjust
enrichment claim appears to rest on two theories:
(1) that it was unjust for Columbia to use the Clinton
sandstone formation beneath the Landowners’
properties without having first obtained gas storage
easements from those who owned the surface lots
above; and (2) that Columbia has been unjustly
enriched by being able to keep money it would have

App. 49
paid as just compensation after acquiring easements by
eminent domain. Under the first theory, the
Landowners reason that Columbia should be required
to disgorge the profits earned on the gas it stored
before it had the right to do so. Alternatively, they
argue Columbia should be required to pay the
Landowners what Columbia would have paid in storage
fees from 1959 to the date it pays just compensation.
ECF Doc. 100, Page ID# 3486. The second theory
involves the implicit contention that Columbia should
be required to provide restitution for the unpaid just
compensation amounts plus interest from the time the
property was first taken by physical occupation in
1959.
The parties do not agree on when Columbia’s
“taking” of the Clinton sandstone formation for the
Medina Storage Field occurred. The court must
determine this predicate issue because Ohio law
requires the person seeking unjust enrichment
recovery to prove that he or she conferred a benefit
upon the party from whom relief is sought. In Johnson
v. Microsoft Corp., 106 Ohio St.3d 278 (2005), the Ohio
Supreme Court defined unjust enrichment and the
restitution-based remedy that may be sought from one
who has been unjustly enriched:
Unjust enrichment occurs when a person “has
and retains money or benefits which in justice
and equity belong to another,” Hummel v.
Hummel (1938), 133 Ohio St. 520, 528, 11 O.O.
221, 14 N.E.2d 923, while restitution is the
“common-law remedy designed to prevent one
from retaining property to which he is not justly

App. 50
entitled,” Keco Industries, Inc. v. Cincinnati &
Suburban Bell Tel. Co. (1957), 166 Ohio St. 254,
256, 2 O.O.2d 85, 141 N.E.2d 465.
To establish a claim for restitution, therefore, a
party must demonstrate “(1) a benefit conferred
by a plaintiff upon a defendant; (2) knowledge by
the defendant of the benefit; and (3) retention of
the benefit by the defendant under
circumstances where it would be unjust to do so
without payment (‘unjust enrichment’).”
Hambleton v. R.G. Barry Corp. (1984), 12 Ohio
St.3d 179, 183, 12 OBR 246, 465 N.E.2d 1298.
As this court has stated, the purpose of such
claims “is not to compensate the plaintiff for any
loss or damage suffered by him but to
compensate him for the benefit he has conferred
on the defendant.” Hughes v. Oberholtzer (1954),
162 Ohio St. 330, 335, 55 O.O. 199, 123 N.E.2d
393.
Id. at 286. See also Arcelor Mittal Cleveland, Inc. v.
Jewell Coke Co., L.P., 750 F. Supp. 2d 839, 849 (N.D.
Oh. 2010)(“To succeed on a claim for unjust
enrichment, a plaintiff must prove (1) that a benefit
was conferred by the plaintiff on the defendant; (2) the
defendant’s knowledge of the benefit; and (3) the
improper retention of the benefit.”) Thus, in order to
sue for unjust enrichment, the claimant must have
been the one who conferred the benefit. Hull v. Hartley,
2009-Ohio-88, at ¶ 13 (3rd Dist. App.)
The NGA authorizes the use of the right of eminent
domain to acquire rights in properties when necessary

App. 51
to accomplish the activities authorized in certificates of
public convenience and necessity. Columbia argues
that its “taking was effected as of the date it filed its
condemnation” action in Booth. ECF Doc. 90, Page
ID# 2433. But Columbia has undisputedly stored
natural gas in the Medina Storage Field “since 1959.”
ECF Doc. 100, Page ID# 3463, 3484. Thus, a “taking” to
operate as required by the 1958 Certificate occurred
then. United States v. Dow, 357 U.S. 17, 22, 2 L.Ed.2d
1109, 78 S.Ct. 1039 (1958). The court has already
concluded that Columbia had a right – and indeed was
obligated – to construct and operate the Medina
Storage Field within three years of the issuance of the
1958 Certificate. Page 8, supra. The court further
concludes that Columbia’s taking occurred when it
occupied the Clinton sandstone formation for the
Medina Storage Field in 1959.
Columbia’s government-sanctioned taking of the
Clinton sandstone formation for the Medina Storage
Field gave rise to an obligation to pay just
compensation in 1959. “The owner at the time the
Government takes possession ‘rather than the owner at
an earlier or later date, is the one who has the claim
and is to receive payment.’” Dow, 357 U.S. at 22, citing
23 Tracts of Land v. United States, 177 F.2d 967, 970
(6th Cir. 1949). Despite taking the Clinton sandstone
formation beneath the Landowners’ properties in 1959,
Columbia never paid the then-owners just
compensation. And the former owners, being unaware
of the taking, never commenced inverse condemnation
actions. Those who owned the Landowners’ properties
in 1959 had claims to recover just compensation. The

App. 52
Landowners, having no interest in the property at the
time of the taking, did not. Dow, 357 U.S. at 22.
Because Columbia never instituted condemnation
proceedings until it asserted the counterclaim in Booth,
it never acquired title to gas storage easements, despite
its physical occupation of the Clinton sandstone
formation in 1959. Dow, 357 U.S. at 21-22 (citing Albert
Hanson Lumber Co. v. United States, 261 U.S. 581,
587, 43 S.Ct. 442, 67 L.Ed. 809 (1923)). However, title
for the easements will pass upon completion of the
eminent domain process in Booth. Columbia will be
required to pay just compensation in order to acquire
the gas storage easements. Columbia acknowledges
that it must obtain the easements – legal title – to the
Clinton sandstone formation in order to have the
authority to prevent others from interfering with its
stored natural gas. ECF Doc. 90, Page ID#2429, n.4.
Given the foregoing, the necessary question
presented is whether the Landowners have standing to
assert an unjust enrichment claim arising from
Columbia’s 1959 taking. To do so, they must have
conferred a benefit upon Columbia. They assert that
the benefit they conferred was permitting Columbia to
use the Clinton sandstone formation beneath their
properties for natural gas storage. This is a doubtful
proposition inasmuch as Columbia’s taking occurred in
1959 and the earliest any of the Landowners’ acquired
their property was 1990. Columbia challenges the
Landowners’ contention that they conferred a benefit
upon Columbia, not based on their lack of ownership in
1959 when Columbia’s taking occurred, but upon its
argument that the Landowners do not own the Clinton

App. 53
sandstone formation because they did not use it.12 ECF
Doc. 90, Page ID# 2427, 2429. However, by instituting
Booth, Columbia has effectively conceded the issue of
whether the Landowners have some interest in the
Clinton sandstone formation, notwithstanding its
attempt to argue that is has made no such concession.
Id. Page ID# 2429, n.4.
Most of Columbia’s motion for summary judgment
and reply memorandum deals with the Landowners’
trespass claim; Columbia barely mentions the unjust
enrichment claim, often conflating the trespass and
unjust enrichment claims as “tort claims.” But “it is
well-settled that claims for unjust enrichment sound in
contract rather than tort.” See Dodson v. Maines, 2012Ohio-2548, ¶¶ 37-38, citing Complete Gen. Constr. Co.
v. Koker Drilling Co., 10th Dist. No. 02AP-63, 2002
Ohio 4778, ¶ 28, n.1. Columbia urges the court to
extend the holding of Chance v. BP Chemicals to not
only preclude the Landowners’ trespass claim but also
their unjust enrichment claim. ECF Doc. 90, Page ID#
2428-2429. Columbia reasons that, because the
Landowners have never used the Clinton sandstone
formation, they had no ownership right in that stratum
at all. And if they have no rights in that formation,
then they cannot have conferred a benefit upon
Columbia by “allowing” its storage of natural gas there.
As discussed above, Chance plainly held that a
landowner’s rights in the subsurface strata beneath his
property are not “absolute.” The landowner has no

12

As is more fully discussed above in connection with Columbia’s
trespass argument.

App. 54
right to exclude another from subsurface areas the
landowner does not use. But Chance never held that a
surface owner has no rights in the subsurface strata.
Indeed, the fee simple owner of land owns all of the
legal title to the property. The Supreme Court’s use of
the terms “limited” and “not absolute” in Chance
signifies that some residual rights in the subsurface
strata belong to the surface landowner. Columbia’s
effort to acquire gas storage easements constitute an
admission of this conclusion.
Here, the Landowners argue that Columbia has
been unjustly enriched by storing natural gas beneath
their properties “since 1959” without having to pay
storage fees or even paying just compensation for the
taking. The Landowners seek an order requiring
Columbia to disgorge the profits it earned on the gas
stored beneath their properties. Alternatively, they
seek an order requiring Columbia to pay to them what
it would have been required to pay for gas storage fees
since 1959.
Columbia argues that the Landowners, on the basis
of an unjust enrichment claim, are not entitled to
disgorgement of Columbia’s gross revenues for the gas
that was stored on their properties. Relying on Beck v.
N. Nat. Gas Co., 170 F.3d 1018, 1024 (10th Cir. 1999),
Columbia argues that the Landowners did not confer
upon Columbia the fees Columbia collected for natural
gas storage because under no circumstances would the
Landowners have been entitled to such fees, even if
they had granted storage easement rights to Columbia.
Columbia argues that, at most, the only economic
benefit that it allegedly retained that arguably

App. 55
belonged to the Landowners was the amount that it
could have been required to pay for gas storage
easements.13 ECF Doc. 90, Page ID# 2434-2435.
In addition to its conclusion that the Landowners
conferred no benefit during times their properties were
owned by predecessors, the court also concludes that
the Landowners are not entitled to Columbia’s gross
revenues or profits realized from storing gas in the
Clinton sandstone formation under their properties
even for the periods the Landowners have owned their
properties. In Beck, case law cited by the Landowners,
the court recognized that the landowners had “offered
nothing to show that the profits earned by [defendant]
could reasonably be considered a benefit conferred
upon [defendant] by them.” Thus, they were not
entitled to defendant’s profits on their unjust
enrichment claim. Rather, the court held that the
proper measure of damages was the fair rental value of
the property. Beck 170 F.3d at 1024. Similarly, the
Landowners here cannot show that Columbia’s natural
gas storage revenues were derived from any benefit the
Landowners conferred; the Landowners have no claim
to such revenues or profits.
A recovery for unjust enrichment, or quasi-contract,
requires a plaintiff to prove by a preponderance of the
evidence that “(1) the plaintiff conferred a benefit upon
the defendant, (2) the defendant had knowledge of such
benefit, and (3) the defendant retained the benefit
under circumstances where it would be unjust for him

13

Columbia points out that not all of the plaintiffs are actually
landowners above the Medina Storage Field.

App. 56
to retain that benefit without payment.” Ross-Co Red
Mix Co., Inc. v. Steveco, Inc., 4th Dist. No. 95CA3, 1996
Ohio App. LEXIS 437, 1996 WL 54174, *3 (Feb. 6,
1996), citing Hambleton v. R.G. Barry Corp., 12 Ohio
St.3d 179, 183, 12 Ohio B. 246, 465 N.E.2d 1298 (1984).
The Landowners’ alternative argument is that
Columbia benefitted by an amount equal to what the
Landowners would have received in rental storage fees
for fifty-nine years. ECF Doc. 100, Page ID# 3485-3486.
Columbia disagrees for two reasons. First, it contends
that damages on an unjust enrichment claim are
limited by the six year statute of limitations in Ohio
Rev. Code § 2305.07. Columbia argues that the
Landowners’ damages are limited to the recovery of
any benefits the Landowners conferred and Columbia
unjustly retained during the six-year period prior to
the filing of this action on March 5, 2014. And
Columbia argues that the filing of the condemnation
claim in Booth cuts off any claim for unjust enrichment
damages allegedly accruing after that date, April 22,
2014. Second, Columbia argues that the award of just
compensation in Booth will represent “the actual
market value of the storage right” ECF Doc. 90, Page
ID#2434, n.9; ECF Doc. 105, Page ID# 3547, n.7.
Columbia contends that, at most, the Landowners
could have a right to make an unjust enrichment claim
for interest on the funds Columbia held rather than
paying to the Landowners as just compensation for
storage easements. Id.
For the reasons already expressed, the Landowners
have no claim to recover gas storage fees for periods
before the Landowners acquired their properties. Any

App. 57
benefit conferred upon Columbia for gas storage during
those years did not belong to the Landowners, and the
Landowners have not cited any authority holding
otherwise.14 In addition, the court concludes that the
Landowners’ claim is governed by the six-year statute
of limitations in O.R.C. § 2305.07. At most, the
Landowners can seek unjust enrichment damages for
the period from March 5, 2008 through the date of the
judgment rendered herein.
The court agrees with Columbia that when the
Landowners receive just compensation as a result of
Booth, they will have been compensated for the storage
rights Columbia has utilized since the Landowners
acquired their properties. In addition, the just
compensation award will compensate them for the
transfer of legal title to the gas storage easements
Columbia is taking by eminent domain pursuant to the
NGA.
The court also notes that the Booth Commission has
recommended that Columbia pay $250 per lot or $450
per double lot for permanent easements on the
Landowners’ properties. The Landowners have not filed
any objection to the commission chairman’s report. The

14

The Landowners invoke State v. Jordan, 186 F.2d 803, 808
(6th Cir. 1951), a case the court has distinguished above. The
Landowners also cite R.C. § 5302.04 which states that a
conveyance of property includes all rights, easements, privileges
and appurtenances, unless stated otherwise. They cite O.R.C.
§ 5301.56 concerning the abandonment and preservation of
mineral interests, also inapplicable here. The Landowners cite no
authority showing they can assert an unjust enrichment claims
related to property that they did not own.

App. 58
just compensation for these permanent easements
necessarily encompasses all rental fee obligations
Columbia arguably could have owed the Landowners
on an unjust enrichment basis. However, nothing in
the Commission’s recommendation has captured the
time value of these funds dating back to March 5, 2008,
the date six years prior to the filing of the instant
action.
Because the court does not believe there will be any
genuine dispute of material facts concerning the time
value of the per-lot just compensation payments, the
court will order the Landowners and Columbia to
confer and submit an agreed calculation of interest due
on said payments. For reference, the parties should
review and consider the potential application of the
interest calculation model adopted by the court in
Hardy Storage Company, LLC v. Property Interests
Necessary to Conduct Gas Storage Operations, etc.,
No. 2:07CV5, 2009 WL 689054 (N.D. WV, March 9,
2009). Upon submission of an agreed interest
calculation, the court will entertain a motion to:
(i) either apply said interest to the judgment to be
rendered in Booth (which would necessarily mean that
there were no further damages to be awarded on the
Landowners’ unjust enrichment claim in this action,
resulting in summary judgment for Columbia on said
claim) or (ii) to render summary judgment in favor of
the Landowners on their unjust enrichment claim in
this action for the amount of interest due.
In summary, the court concludes that the
Landowners have no standing to obtain unjust
enrichment damages for benefits allegedly retained by

App. 59
Columbia during times before the Landowners
acquired their properties. The court further concludes
that the payment of just compensation in Booth will
fully compensate the Landowners for any unjust
enrichment they may have conferred upon Columbia.
And the court will direct the parties to agree on an
amount of prejudgment interest that Columbia should
be required to pay on the just compensation amount for
the period March 5, 2008 through the date just
compensation is paid.
C. Punitive Damages
Columbia contends that it is entitled to summary
judgment on the Landowners’ demand for punitive
damages. Columbia argues that punitive damages are
only available with tort claims and that there is no
evidence of actual malice in this case. The Landowners
argue that punitive damages are permitted if even
nominal damages are awarded on a trespass claim.
ECF 100, Page ID# 3488. The Landowners also cite
Bowman, in which the Sixth Circuit affirmed an award
of punitive damages associated with a trespass similar
to this case.
Under Ohio law, the general rule is that punitive
damages may only be recovered in actions involving
intentional torts. See Mabry-Wright v. Zlotnik, 165
Ohio App.3d 1, 2005 Ohio 5619, 844 N.E.2d 858, ¶ 18
(3d Dist.) ( “[P]unitive damages are generally not
recoverable in an action for breach of contract.”), citing
Digital & Analog Design Corp. v. N. Supply Co., 44
Ohio St.3d 36, 45-46, 540 N.E.2d 1358 (1989). However,
where the breach of contract action is accompanied by
a connected tort that is fraudulent, wanton, reckless,

App. 60
malicious, or oppressive, punitive damages may be
appropriate. Zlotnik at ¶ 19. See also Hofner v. Davis,
111 Ohio App.3d 255, 259, 675 N.E.2d 1339 (6th Dist.
1996), and Burns v. Prudential Sec., Inc., 167 Ohio
App. 3d 809, 2006 Ohio 3550, 857 N.E.2d 621
(3rd Dist.).
In this case, the Landowners have failed to show
physical damages or interference with their properties,
and the court has concluded that Columbia is entitled
to summary judgment on the Landowners’ trespass
claim. Accordingly, because the Landowners’ only
remaining claim is for unjust enrichment, they are not
be entitled to punitive damages. See Nelson v.
Motorists Mut. Ins. Co., 1st Dist. No. C-850841, 1986
Ohio App. LEXIS 8207, 1986 WL 9782, *1 (Sept. 10,
1986). “[I]t is well-settled that claims for unjust
enrichment sound in contract rather than tort.” See
Dodson v. Maines, 2012-Ohio-2548, ¶¶ 37-38, citing
Complete Gen. Constr. Co. v. Koker Drilling Co.,
10th Dist. No. 02AP-63, 2002 Ohio 4778, ¶ 28, n.1.
Bowman does not compel a different result. As
discussed above, Bowman was decided before Chance.
The Sixth Circuit did not consider whether plaintiffs
had asserted a valid claim for trespass under Ohio law
because that issue had not been preserved for appeal.
Bowman, 1988 U.S. App. LEXIS at *4. Moreover,
application of Bowman is inapposite because it
involved evidence that the storage of gas actually
interfered with the use of plaintiff’s land. Here,
plaintiffs have shown no such interference. And finally,
the district judge who presided over Bowman later
determined that he had erred in that decision. See

App. 61
Columbia Gas Transmission Corp. v. Exclusive Natural
Gas Storage Easement, etc., 747 F. Supp. 401, 404 (N.D.
Oh. 1990). Consequently, because the Landowners have
not asserted a valid tort claim, punitive damages are
unavailable in this case.
D. Preemption
Finally, the court declines Columbia’s invitation to
revisit its ruling on the issue of preemption. The
question of preemption was fully considered and
addressed in this court’s order on Columbia’s motion to
dismiss. ECF Doc. 58. Columbia has not identified any
conflict between the NGA and Ohio law that makes it
impossible for Columbia to comply with both under the
facts of this case. It is not necessary to reconsider
preemption at this time.
VI.

Conclusion
The court makes the following orders:

1. Columbia’s motion for summary judgment on
Count One of plaintiffs’ second amended complaint is
GRANTED.
2. The Landowners’ motion for partial summary
judgment on Count One of their complaint and on their
request for a determination that Columbia’s trespass
was malicious is DENIED.
3. On or before 4:00 p.m. on February 26, 2018, the
parties shall submit an agreed calculation of the
amount of prejudgment interest that would be due on
the just compensation amounts determined by the

App. 62
Booth Commission from May 5, 2008 through the date
of payment of the just compensation amounts.15
4. On or before 4:00 p.m. on February 26, 2018, the
parties shall file a joint listing of the plaintiffs in this
action who own properties located above the
Certificated Medina Storage Field established by the
1987 Certificate. Said filing shall also separately list
those plaintiffs who do not own property above the
Medina Storage Field.
5. On or before 4:00 p.m. on February 26, 2018, the
parties shall file either a joint position statement or
separate position statements on whether the interest
amount agreed to as required in paragraph 3 above
shall be added to the judgment to be entered in Booth
or shall be awarded as damages on plaintiffs’ Count
Two unjust enrichment claim in this action. Should the
latter approach be taken, the court will enter summary
judgment on the unjust enrichment claim in favor of
those plaintiffs identified in the list submitted
pursuant to paragraph 4 above who own land above the
Medina Storage Field.
6. The court DEFERS ruling on Columbia’s motion
for summary judgment on the Count Two unjust
enrichment claim until the foregoing requirements are
accomplished.

15

By submitting an agreed calculation, the parties will not waive
any rights to appeal they would otherwise have.

App. 63
IT IS SO ORDERED.
Dated: February 14, 2018
/s/Thomas M. Parker
Thomas M. Parker
United States Magistrate Judge

